Case: 20-30227

Document: 00515787741

Page: 1

Date Filed: 03/19/2021

ilmteb States Court of appeals!
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-30227

March 19, 2021
Lyle W. Cayce
Clerk

Bobby Carl Terrick

Petitioner—Appellant^
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary)
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:19-CV-985

ORDER:
IT IS ORDERED that appellant’s motion for a certificate of
appealability is DENIED.
IT IS FURTHER ORDERED that appellant’s motion for leave to
appeal in forma pauperis is DENIED.

aStuart Kyle Duncan
United States Circuit Judge

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 1 of 8

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
BOBBY CARL TERRICK

CIVIL ACTION

VERSUS

NO. 19-985

DARRELL VANNOY, ET AL.

SECTION "B"

ORDER & REASONS
Before

the

Court

are

petitioner's

objections

to/and

the

Magistrate Judge's Report and Recommendation to dismiss this state
court

inmate's

se petition

pro

for

habeas

corpus

petitioner's motion for abeyance. See Rec. Docs.

relief,

and

14, 25, and 26.

For the reasons discussed below,
IT IS ORDERED that petitioner's objections are OVERRULED and
the Report and Recommendation are ADOPTED as the court's opinion.
FACTUAL BACKGROUND AND PROCEDURAL HISTORY
In September 2001,
for manslaughter.

Rec.

petitioner was charged by an. indictment
Doc.

25 at 1.

Petitioner pled not guilty

and filed a motion to quash the indictment on grounds that he was
not properly charged as a juvenile. Id. At 2. Petitioner also filed
a motion to suppress his identification and statement.
motions

were

denied.

Id.

On

July

7,

2002,

Petitioner

Id.
was

Both
re-

indicted by a grand jury with one count of second-degree murder,
and was found guilty in July 2002. Id. Petitioner's motions for a
new trial and for post-verdict judgment of acquittal were denied.
Id.

On August

16,

2002,

he was
1

sentenced to life

imprisonment

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 2 of 8

without benefit of parole,

probation or suspension of sentence.

Id. Petitioner is incarcerated at the Louisiana State Penitentiary
in Angola, Louisiana. Id. at 1.
The

Louisiana

remanded
notice

with

of

the

Fifth Circuit

instructions

to

prescriptive

period

relief on September 30,
Louisiana

Court

Supreme

2003.

Court

provide

Id.

denied

petitioner

for
at 2.

his

of Appeal

seeking

affirmed
with

and

written

post-conviction

On March 26,

application

for

2004,
writ

the
of

certiorari. Id.
On November 30, 2017, the trial court granted the petitioner's
motion to correct an illegal sentence to life imprisonment with
parole eligibility after 25 years. Id. at 3.
LAW AMD ANALYSIS
a.

MOTION FOR STAY AND ABEYANCE

In order for a motion for stay and abeyance to be granted the
petitioner 1) must have good cause for his failure to exhaust his
unexhausted

claims,

potentially

meritorious,

2)

must
and

have
3)

unexhausted
must

not

claims
have

intentionally dilatory litigation tactics. Haynes v.
526

F.3d

189,

196

(5th Cir.

2008) .

that

engaged

are
in

Quarterman,

All three elements must be

present. Id.
In regard to the good cause element for a failure to exhaust
unexhausted claims,

the Supreme Court has cautioned that a stay-

and-abeyance "should only be available in limited circumstances,"
2

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 3 of 8

and is appropriate only when the district court determines that
there was "good cause" for the failure to exhaust. Rhines v. Weber,
544 U.S. 269, 277

(2005).

Petitioner's claim regarding his confession was denied by the
Louisiana Supreme Court as untimely while this federal application
was pending.

Rec.

Doc.

25 at 26.

Petitioner's claim challenging

the indictment was rejected as procedurally barred by the state
district court and is still pending in the state court of appeal.
Id. No good cause has been shown to warrant a stay in this case.
b. WRIT OF HABEAS CORPUS
The Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA") controls this Court's review of a 28 U.S.C. § 2254 habeas
corpus petition. See Poree v. Collins, 866 F.3d 235, 245 (5th Cir.
2017)

("Federal

habeas

proceedings

are

subject

to

the

rules

prescribed by the Antiterrorism and Effective Death Penalty Act .
"). Under § 2254, an application for a writ of habeas corpus
may be denied on the merits,

even if an applicant has failed to

exhaust state court remedies. See 28 U.S.C. § 2254(b) (2); Jones v.
Jones,

163 F.3d 285,

AEDPA,

the

amended

299

(5th Cir. 1998). Enacted as part of the

subsections

2254(d)(1)

and

(2)

provide

the

standards of review for questions of fact, questions of law, and
mixed questions of both.
For pure questions of fact, state court factual findings are
presumed

to

be

correct.

See

28

3

U.S.C.

§

2254 (e) (1)

("In

a

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 4 of 8

P^ocssding instituted by an application for a writ of habeas corpus
.

. a determination of a factual issue made by a State court

shall be presumed to be correct."). The applicant has the burden
of rebutting the presumption by clear and convincing evidence. See
id.

However,

a

writ

of habeas

corpus may be

granted

if

the

adjudication of the claim on the merits "resulted in a decision
that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding." 28
U.S.C.

§ 2254(d)(2);

Hankton

v.

Bout te,

2018

CJ.S.

Dist.

LEXIS

126899 *1, *10 (E.D. La June 29, 2018).
For pure questions of law and mixed questions of law and fact,
a state court's determination is reviewed under § 2254(d)(1). See
Hill v. Johnson, 210 F.3d 481, 485 (5th Cir. 2000). Specifically,

with mixed

questions,

a

state

court's

determination

receives

deference unless the decision was either contrary to federal law
or involved an unreasonable application of federal law.

See §

2254(d)(1); Hill, 210 F.3d at 485.
A state court's decision is contrary to federal law if (1)
the state court applies a rule different from the governing law
set forth in the Supreme Court's cases or

(2)

the state court

decides a case differently than the Supreme Court when there are
"materially indistinguishable facts." See Poree v.

Collins,

866

F.3d at 246; Wooten v. Thaler, 598 F.3d 215, 218 (5th Cir. 2010).
A state court's decision involves an unreasonable application of
4

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 5 of 8

federal law when it applies a correct legal rule unreasonably to
the facts of the case. See White v. Woodall, 134 S. Ct. 1697, 1706
(2014).

An inquiry under the unreasonable context involves not

whether the state court's determination was incorrect, but whether
the determination was objectively unreasonable. Boyer v.

Vannoy,

863 F.3d 428, 454 (5th Cir. 2017).
The court in Boyer stated that the determination must not be
"merely wrong,"

and

that

"clear

error"

overturn a state court's determination.
Epps, 641 F.3d 657, 663 (5th Cir. 2011)

will
Id;

not be

enough

to

see also Puckett v.

(finding that unreasonable

is not the same as incorrect, and thus an incorrect application of
the law will be affirmed if it is not also unreasonable).

Even if

a state court incorrectly applies Supreme Court precedent,
mistake alone,

does not mean that a petitioner is

habeas relief. See Puckett,

that

entitled to

641 F.3d at 663.

Courts refer to the Supreme Court's decision in Jackson v.
Virginia

when

reviewing

and

analyzing

claims

challenging

the

sufficiency of the evidence. Courts must determine, "after viewing
the

evidence

[whether]

in

the

light most

favorable

to

the

prosecution,

any rational trier of fact could have found that the

essential elements of the crime [were proven] beyond a reasonable
doubt." Jackson v.

Virginia,

443 U.S.

307,

319

(1979).

However,

this review does not mean that courts can reweigh the evidence or
the credibility of the witnesses. Hankton, 2018 U.S.
5

Dist. LEXIS

Case 2:19-cv-00985-lLRL Document 27 Filed 03/17/20 Page 6 of 8

(quoting United States v.

126899 at *14

Young,

107 F. App'x 442,

443 (5th Cir. 2004}} .
The Court must review petitioner's claim under § 2254(d)(1)
as his claim is one of mixed law and fact.

In other words,

this

Court will defer to the state court's determination unless the
petitioner shows that the result was contrary to or involved an
unreasonable

application

of

Federal

law.

See

28

2254(d)(1). Upon the Court's review under 28 U.S.C.

U.S.C.
§ 2254,

§
the

Court finds that petitioner's claim should be denied because he is
not being held in state custody in violation of federal law.
Petitioner's sentence does not violate his due-process rights
and the principle of fair warning.

Louisiana state courts have

soundly rejected the application of State v. Craig, 340 So.2d 191
(La. 1976), where individuals with mandatory death sentences for
aggravated rape were resentenced to the most serious penalty for
the next lesser responsive verdict.
situations

as

here

following Miller v.
Francis, 17-651

where
Alabama,

Craig is not applicable in

juveniles
567 U.S.

were
460

(La. App. 5 Cir. 5/16/18),

ordered
(2012).

resentenced
See

State

v.

247 So.3d 199 203-04;

State v. Evans, 51, 811 (La. App. 2 Cir. 1/10/18), 245 So.3d 1112;
State v. Lewis,
532.

17-651

(La. App. 4 Cir. 4/18/18), 244 So.3d 527,

The state court determination upon resentencing petitioner

Terrick to life imprisonment with parole eligibility for seconddegree murder

is

not

objectively unreasonable
6

or violative

of

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 7 of 8

Supreme Court precedent. Terrick's request to resentence juvenile
offenders

from

life

sentences

for

murder

to

the

next

lesser

responsive verdict of manslaughter is incorrect.
A claim that only urges a misapplication of state law is not
properly before the Court for federal habeas review. Rec. Doc. 25
at

19.

"It

reexamine

is

not

the

state-court

province

of

determinations

Estelle v. McGuire, 502 U.S. 62,

a

federal
on

habeas

state-law

court

to

questions."

67-68(1991); see also Charles v.

Thaler, 629 F.3d 494, 500-01 (5th Cir. 2011)

("Under § 2254, federal

habeas courts sit to review state court misapplications of federal
law. A federal court lacks authority to rule that a state court
incorrectly interpreted its own law. When, as here, a state court's
legal conclusions are affirmed by the highest court in that state,
those conclusions are state law.");
466,

506

(5th Cir.

1977)

Hogue v.

Johnson,

131 F.3d

(a disagreement as to state law is not

cognizable on federal habeas review). Federal habeas corpus relief
may be granted only to remedy violations of the Constitution and
laws of the United States; mere violations of state law will not
suffice. 28 U.S.C. § 2254; Engle v. Isaac, 456 U.S. 107, 119, 102
S.Ct. 1558, 71 L.Ed.2d 783 (1982).
Petitioner claims there is a violation of fair warning based
on his life sentence with parole eligibility after 25 years. Rec.
Doc.

25 at 20-21.

such

arguments

in

Federal district courts have uniformly denied
the

context

of
7

comparable

Graham violations

Case 2:19-cv-00985-ILRL Document 27 Filed 03/17/20 Page 8 of 8

(minor sentenced to unconstitutional mandatory life imprisonment
without parole for non-homicide crimes), remedied to afford parole
eligibility pursuant to State v. Shaffer, 11-1756 (La. 11/23/11),
77 So.3d 939, which rejected the Craig methodology,
cases involving Miller violations.

See

Looney v.

as well as
Vannoy,

Civ.

Action No. 3:19-CV-00939, 2019 WL 6034957 at *3 (W.D. La. Oct. 23,
2019), adopted 2019 WL 6003239 (W.D. La. Nov. 13, 2019); Jackson
v. Vannoy, Civ. Action No. 5:19-CV-665-P, 2019 WL 4145727 at *3
(W.D. La. July 11, 2019), adopted 2019 WL 4166762 (W.D. La. Aug.
30,

2019);

Jones v.

LeBlanc,

Civ.

Action No.

16-844,

2017 WL

5125766, at *4-6 (E.D. La. March 17, 2017), adopted 2017 WL 5068346
(E.D. La. Nov. 03, 2017). Id.
Further,
retroactively

there
applied

is

no

the

dispute

new

that

statutory

the

trial

sentencing

court

law under

Miller when petitioner was resentenced in 2017. A change violates
ex post facto law only if it "changes the punishment and inflicts
a greater punishment than the law annexed to the crime,

when

committed." Calder v. Bull, 3 U.S. 386, 390 (1798). Here, there
was no increase in petitioner's penalty for second-degree murder.
Rec. Doc. 25 at 24.
New Orleans, Louisiana this 17th day of March, 2020.

SENIOR UNITED STATES DISTRICT JUDGE
8

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 1 of 27

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
BOBBY CARL TERRICK

CIVIL ACTION

VERSUS

NO. 19-985

DARREL VANNOY, WARDEN

SECTION: MB”(5)

REPORT AND RECOMMENDATION
This matter was referred to the undersigned United States Magistrate Judge to
conduct a hearing, including an evidentiary hearing, if necessary, and to submit proposed
findings and recommendations for disposition pursuant to 28 U.S.C. § 636(b)(1)(B) and (C),
and as applicable, Rule 8(b) of the Rules Governing Section 2254 Cases in the United States
District Courts.

Upon review of the entire record, the Court has determined that this

matter can be disposed of without an evidentiary hearing.

See 28 U.S.C. § 2254(e)(2).

For the following reasons, IT IS RECOMMENDED that the motion for abeyance be DENIED
and the petition for habeas corpus relief be DISMISSED WITH PREJUDICE.
Procedural History
1. State-Court Proceedings
Petitioner, Bobby Carl Terrick, is a convicted inmate currently incarcerated at the
Louisiana State Penitentiary in Angola, Louisiana.
with manslaughter by grand-jury indictment.1

On September 13,2001, he was charged
He pleaded not guilty and filed a motion to

1 State Rec., Vol. 14 of 29, Grand Jury Indictment, Jefferson Parish, 9/13/01. Jeremy
Ross, a co-defendant tried separately, was also charged in the same indictment with second-

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 2 of 27

quash the indictment on grounds that he was not properly charged as a juvenile,
filed a motion to suppress his identification and statement.

He also

Both motions were denied.

On June 7, 2002, Terrick was re-indicted by a grand jury with one count of second-degree
murder.2

In July 2002, a jury found him guilty of second-degree murder.3

for a new trial and for post-verdict judgment of acquittal were denied.4

His motions
On August 16,

2002, he was sentenced to life imprisonment without benefit of parole, probation or
suspension of sentence.5
On direct appeal, he asserted that the evidence was insufficient to support his
conviction.

He also challenged the trial court's refusal to grant his motion to suppress the

statement as not knowingly or voluntarily made since he was only 16 years old and the denial
of his motion for new trial given the insufficiency of the evidence.

The Louisiana Fifth

Circuit Court of Appeal affirmed and remanded with instructions to provide him with written
notice of the prescriptive period for seeking post-conviction relief.6

On March 26, 2004,

degree murder.
2 State Rec., Vol. 14 of 29, Grand Jury Indictment, 6/7/2002.
3 State Rec., Vol. 1 of 29, Minute Entry, 7/17/02.
4 State Rec., Vol. 1 of 29, Minute Entry, 8/2/02.
5 State Rec., Vol. 1 of 29, Minute Entry, 8/16/02.
6 State v. Terrick, 2003-515 [La. App. 5 Cir. 9/30/03), 857 So.2d 1153; State Rec., Vol.
15 of 29.

2

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 3 of 27

the Louisiana Supreme Court denied his application for writ of certiorari.7
Between 2004 and 2013, Terrick pursued post-conviction relief in the state courts.
He filed numerous motions challenging his conviction and sentence at all levels of the statecourt system with no success.0

During this same period, Terrick also filed two unsuccessful

federal habeas corpus petitions, discussed at length later in this report.
In June 2013, following the United States Supreme Court decision in Miller v. Alabama,
567 U.S. 460 (2012), holding that the Eighth Amendment's prohibition of cruel and unusual
punishment prohibits imposition of mandatory life in prison without the possibility of parole
for juveniles, Terrick filed a motion to correct an illegal sentence requesting resentencing
under Miller.9

A hearing was scheduled but continued numerous times for various reasons

and he was unable to obtain a ruling for some time.
amend the motion to correct an illegal sentence.

In March 2016, he filed a motion to

On November 30, 2017, the trial court

held a hearing at which Terrick was represented by counsel.10

The trial court granted the

motion to the extent it requested resentencing under Miller and resentenced Terrick
pursuant to Louisiana Revised Statute 15:574.4(D), to life imprisonment with parole

7 State v. Terrick, 2003-3272 (La. 3/26/04), 871 So.2d 346; State Rec., Vol. 24 of 29.
8 These filings are set forth in the procedural history section of the State's response
(Rec. Doc. 13, pp. 3-8); however they will not be discussed herein as they do not impact the
current issues and the State does not challenge timeliness.
9 State Rec., Vol. 3 of 29, Motion to Correct Illegal Sentence, R.p. 611.
10 State Rec., Vol. 17 of 29, Transcript of November 30, 2017 hearing R.p. 3909.

3

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 4 of 27

eligibility after serving 25 years.11
Terrick filed a pro se supervisory writ application with the Louisiana Fifth Circuit
Court of Appeal challenging the resentencing.«
appeal.

He also, through counsel, filed a notice of

The court of appeal denied the writ since his proper avenue of relief was a direct

appeal, which was pending.13

Terrick filed a supervisory writ application challenging the

writ ruling with the Louisiana Supreme Court.14
In his second direct appeal, appellate counsel filed a brief asserting that she could find
no nonfrivolous issues to raise and asking to withdraw pursuant to Anders v. California, 386
U.S. 738 (1967).

Terrick filed a pro se brief asserting three errors, one challenging the

denial of his writ and two challenging the resentence as a violation of due process, fair
warning and ex postfacto laws.

On August 29,2018, the court of appeal granted the motion

to withdraw, affirmed his resentencing and remanded for correction of the minute entry and
commitment to reflect that he was resentenced pursuant to Section G (not D) of Louisiana
Revised Statute 15:574.4.1S

He did not file another writ application with the Louisiana

11 State Rec., Vol. 4 of 29, Minute Entry, 11/30/17.
12 State Rec., Vol. 22 of 29, Louisiana Fifth Circuit Writ No. 17-KH-681.
2018).

13 State Rec., Vol. 22 of 29, Terrick v. State, 17-KH-681 (La. App. 5th Cir. March 8,
14 State Rec., Vol. 28 of 29, Louisiana Supreme Court Writ No. 18-KO-532.

15 State v. Terrick, 18-KA-102 (La. App. 5 Cir. 8/29/18), 254 So.3d 1246; State Rec.,
Vol. 17 of 29.

4

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 5 of 27

Supreme Court as he currently had one pending from the denial of his supervisory writ
application.

On January 14, 2019, the Louisiana Supreme Court denied his writ

application.16
Terrick thereafter pursued separate post-conviction relief applications in the state
courts on issues unrelated to his resentencing and challenging only his conviction (i.e., the
admissibility of his confession and the validity of the grand jury indictment).17

At the time

he filed the instant federal habeas corpus petition, he did not raise these unexhausted
claims.18
2. Prior Federal Habeas Corpus Petitions
Terrick filed his first federal habeas application in 2006.19

He asserted that the

evidence was legally insufficient to support his conviction for second-degree murder and
that he was denied due process on appeal when the appellate court denied his insufficiency-

16 State v. Terrick, 2018-KO-0532,2019 WL 277609 (La. 1/14/19); State Rec., Vol. 28
of 29.

17 State Rec., Vol. 5 of 29, R.p. 1025 (November 2018 PCR challenging confession);
State Rec., Vol. 29 of 29, In Re: Terrick, No. 19-KH-43 (La. App. 5th Cir. Feb. 19, 2019);
Louisiana Supreme Court Writ No. 2019-KH-488; see also State Rec., Vol. 5 of 29, R.p. 1127
(April 2019 PCR challenging grand jury indictment).
18 Terrick filed a separate federal habeas corpus application, his fourth, wherein he
attempted to assert these two claims for relief, but he failed to pursue authorization in the
U.S. Fifth Circuit Court of Appeals to proceed in this Court. See C.A. 19-11515 "B"(5) (E.D.
La.).
19 Terrick v. N. Burl Cain, Warden, Civ. Action No. 06-541 "D"(6) (E.D. La. 2006)
(setting forth procedural history in state court prior to 2006).

5

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 6 of 27

of-the-evidence claim.
petition.

He also raised a claim of vindictive prosecution in an amended

On August 18, 2008, the magistrate judge issued a report and recommendation

denying relief.

By order and judgment signed September 15, 2008, the district court

adopted the recommendation denying habeas relief and dismissing the petition with
prejudice.

His motion for certificate of appealability was denied by the United States Fifth

Circuit Court of Appeals.
Terrick filed his second federal habeas application in May 2013.*°
the jury verdict was contrary to the evidence and the law.

He asserted that

This second or successive

habeas petition was transferred to the United States Fifth Circuit Court of Appeals for
authorization to proceed,

On October 16, 2013, the court of appeals issued an order

denying authorization to proceed.21
3.

Current Federal Habeas Petition

In February 2019, Terrick filed the instant federal application for habeas corpus
relief, his third, asserting that the life sentence with the possibility of parole imposed on
resentencing violated the constitutional prohibition against ex postfacto laws and deprived
him of due process and fair warning.22

The State does not dispute timeliness or exhaustion.

20 Terrick v. N. Burl Caint Warden, Civ. Action No. 13-3493 "B"(5) (E.D. La. 2013).

21 SeeC.A. 13-3493, Rec. Doc.6.
22 Rec. Doc. 3, Petition under 28 U.S.C. § 2254 for Writ of Habeas Corpus. Though
inartfully stated, the claims appear to be the same as those raised in his second direct appeal
following the resentencing. Rec. Doc. 3 at pp. 5, 7; State v. Terrick, 254 So.3d at 1250

6

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 7 of 27

The State argues that Terrick is not entitled to relief on the merits.23
Terrick has also filed a motion for abeyance seeking to stay the instant proceedings
while he pursues exhaustion in the state courts of two claims challenging his conviction,
which were not raised in this federal petition.24

He filed a separate federal application with

respect to these other claims, his fourth such petition, but failed upon transfer to obtain
authorization from the United States Fifth Circuit Court of Appeals to proceed with those
claims in this Court.25

The State filed a response in opposition strenuously objecting to a

stay of these proceedings as unwarranted.26
Facts
On his first direct appeal, the Louisiana Fifth Circuit briefly summarized the facts
adduced at trial:
Three witnesses testified at trial, including the investigating officer, a fact
witness, and the coroner. The investigating officer, Detective John Drury of the
Jefferson Parish Sheriffs Office Homicide Division, testified that at
approximately 5:00 a.m. on July 27, 2001, he received a report of a man shot
(Assignments of Error Nos. 2 and 3].
23 Rec. Doc. 13.
24 Rec. Doc. 14. His request to consolidate the two proceedings was initially denied
as premature, Rec. Doc. 16, and his attempt to later revive the request to consolidate was
denied because he failed to obtain authorization to proceed with the second or successive
petition (containing unexhausted claims) in this Court, Rec. Doc. 20. His request for leave
to amend to include the claims was also denied. Rec. Doc. 22.
25 See Civ. Action No. 19-11515 "B"(5).
26 Rec. Doc. 19.

7

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 8 of 27

in the head, located in the rear yard of 501 Wilker Neal Street in Kenner.
Detective Drury responded to the call and found the victim, Edward Sanchez,
still alive. The victim was taken to East Jefferson General Hospital where he
subsequently died.
Dr. Susan Garcia of the Jefferson Parish Coroner's Office performed an autopsy
on the victim. She testified that the victim died from a single gunshot to the
head. In addition to the fatal wound, the autopsy revealed other injuries to the
victim, including a bruised and swollen face and knuckles, lacerations of the
head and abrasions of the chest. Toxicology tests run on the victim's blood and
urine revealed the presence of cocaine and alcohol. A bullet jacket fragment
was also recovered from the victim's body.
Detective Drury investigated the crime scene and had photographs of the area
taken. The investigation revealed a footprint near the location where the
victim's body was found and a blood trail running from the front of the
residence to the rear. Testing disclosed that the blood matched the victim's.
While searching the area around the residence, officers recovered a torn and
bloodstained shirt, a bullet jacket fragment, and a dollar bill.
The investigation led Detective Drury to interview Rosemaiy Charles as a
possible witness to the events surrounding this homicide. Ms. Charles gave
police a statement about her observations on the night of the murder and then,
based on a photographic line-up, identified defendant and Jeremy Ross as the
men she saw assaulting the victim on that night.
Rosemary Charles was also called as a witness at trial. She testified that, on the
evening of July 26,2001, she went to a club in Kenner where she drank several
beers. After she left the club, she walked to the house of a friend who lived on
Wilker Neal Street, just off of Bengal Street in Kenner. From there, Ms. Charles
walked to her brother's house, also located on Wilker Neal Street. According
to Ms. Charles, it was approximately 3:00 or 4:00 a.m. on July 27, 2001 when
Ms. Charles walked down Wilker Neal Street to her brother's house. In the 500
block of Wilker Neal, she saw three men engaged in an argument. The men
were standing near a corner on Wilker Neal Street. Ms. Charles recognized two
of the men as defendant and Jeremy Ross. She knew defendant and Ross from
the neighborhood. According to Ms. Charles, the third man appeared to be
either a light-skinned African-American or a Hispanic male. Ms. Charles
testified that she walked past the three men on her way to her brother's house.
She heard the third man, later identified as the victim, Edward Sanchez, say to

8

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 9 of 27

defendant and Ross, "I'm 5-0,1 got all now." She heard one of the other two
men say "5-0 my a—, I want my money." According to Ms. Charles, a physical
encounter ensued and Sanchez was trying to take something from defendant
and Ross. Ms. Charles continued walking to her brother's house, which was
located four houses away from where the three men were located. As she
approached her brother's residence, Ms. Charles looked back over her
shoulder and she saw defendant and Ross kicking and punching Sanchez as he
lay on the ground.
Ms. Charles entered her brother's residence and told him what she had just
seen. Ms. Charles’ brother cautioned her to stay inside his house. He also told
her that he would walk her home to get some clothes so she could return and
stay at his house while he went to work. Ms. Charles remained inside her
brother's house approximately one-half hour. Thereafter, she and her brother
left and walked down Wilker Neal Street. As the pair walked through the area
where she had previously witnessed the three men, Ms. Charles could hear
someone moaning from the rear of a blue house located on a corner of Wilker
Neal Street. She saw the victim lying in the backyard of the house, and she
thought he had been beaten. She did not realize the victim had been shot
because she had not heard any gunshots. Ms. Charles’ brother told her that this
incident was none of her business, and the pair continued walking to Ms.
Charles' residence. Thereafter, escorted by her brother, Ms. Charles returned
to her brother's house where she remained until the next day.
Based on information Ms. Charles gave the police, along with the positive
identification she provided during the photographic line-up, defendant and
Jeremy Ross were arrested and booked for the murder of the victim. Ross
declined to give police a statement, but defendant did give a statement to
Detective Drury. In that statement, which was provided to the jury at trial,
defendant admitted to punching the victim. He also admitted to chasing the
victim to the rear of the house on Wilker Neal Street, along with Jeremy Ross.
According to defendant's statement, while the men were in the rear yard,
Jeremy Ross shot the victim with a .357 revolver.27
Standards of Review on the Merits
Title 28 U.S.C. § 2254(d)(1) and (2), as amended by The Antiterrorism and Effective

27 State v. Terrick, 857 So.2d at 1155-1157.

9

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 10 of 27

Death Penalty Act of 1996 (AEDPA), provides the applicable standards of review for pure
questions of fact, pure questions of law, and mixed questions of both.

A state court's purely

factual determinations are presumed to be correct and a federal court will give deference to
the state court's decision unless it “was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.”
see

28 U.S.C. § 2254(d)(2);

also 28 U.S.C. § 2254(e)(1) (“In a proceeding instituted by an application for a writ of

habeas corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to be correct. The
applicant shall have the burden of rebutting the presumption of correctness by dear and
convincing evidence.”}.

With respect to a state court's determination of pure questions of

law or mixed questions of law and fact, a federal court must defer to the decision on the
merits of such a claim unless that decision “was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States.” 28 U.S.C. § 2254(d)(1).
The “‘contrary to’ and ‘unreasonable application’ clauses [of § 2254(d)(1)] have
independent meaning."

Bell v. Cone, 535 U.S. 685, 694 (2002).

A state court decision is

"contrary to" clearly established precedent if the state court applies a rule that contradicts
the governing law set forth in the United States Supreme Court's cases or if the state court
confronts a set of facts that are materially indistinguishable from a decision of the United
States Supreme Court and nevertheless arrives at a result different from United States

10

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 11 of 27

Supreme Court precedent.

Williams v. Taylor, 529 U.S. 362, 405-06 (2000); Wooten v.

Thaler, 598 F.3d 215, 218 (5th Cir.), cert denied, 131 S.Ct. 294 (2010).

An “unreasonable

application” of [United States Supreme Court] precedent occurs when a state court
"identifies the correct governing legal rule... but unreasonably applies it to the facts of the
particular state prisoner's case."

Williams, 529 U.S. at 407-08; White v. Woodall, 134 S.Ct.

1697,1706(2014).
It is well-established that "an unreasonable application is different from an incorrect
one.” Bell, 535 U.S. at 694.

A state court's merely incorrect application of Supreme Court

precedent simply does not warrant habeas relief.

Puckett v. Epps, 641 F.3d 657, 663 (5th

Cir. 2011) (“Importantly, ‘unreasonable’ is not the same as ‘erroneous' or ‘incorrect’; an
incorrect application of the law by a state court will nonetheless be affirmed if it is not
simultaneously unreasonable.”).

M[E]ven a strong case for relief does not mean the state

court's contrary conclusion was unreasonable" under the AEDPA.
562 U.S. 86, 102 (2011).

Harrington v. Richter,

Section 2254(d) preserves authority to issue the writ in cases

where there is "no possibility fairminded jurists could disagree that the state court's decision
conflicts with [United States Supreme Court] precedents."

Id. (emphasis added); see also

Renico v. Lett, 559 U.S. 766, 779 (2010) (“AEDPA prevents defendants—and federal
courts—from using federal habeas corpus review as a vehicle to second-guess the reasonable
decisions of state courts.”).

11

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 12 of 27

Analysis
A. “Second or Successive"
As an initial matter, the Court addresses the State's concern regarding the potential
"second or successive" nature of Terrick's petition.

Although the State acknowledges that

both the sentence and errors alleged are new and therefore the instant petition may not be
successive under Section 2244(b), the State nonetheless, in an abundance of caution, asserts
that petitioner must first obtain authorization from the United States Fifth Circuit to file the
technically successive petition.28

The Court notes that while the petition is certainly

second-in-time, in that it follows earlier federal petitions filed by Terrick, it is not
impermissibly successive.

He is challenging for the first time possible a new sentence that

was imposed in 2017 following the United States Supreme Court pronouncements in Miller
v. Alabama, 567 U.S. 460 (2012) and Montgomery v. Louisiana, 136 S.Ct. 718 (2016).
these circumstances, authorization is not necessary.

Under

Seee.g., Stewart v. Vannoy, Civ. Action

16-8711,2016 WL 7157082, at *3 (E.D. La. Oct. 13, 2016) (citing In Re Stewart, No. 14-30189
(5th Cir. June 18, 2014), adopted 2016 WL 7116104 (E.D. La. Dec. 7, 2016); see also Burge v.
Cain, Civ. Action 13-721, 2015 WL 4168111, at *3 (E.D. La. July 1, 2015).
B. Claimsfor Relief: Due Process-Fair Warning and Ex Post Facto Violation
On direct appeal, as here, Terrick asserted that he suffered an ex post facto violation
and was deprived of due process requiring fair warning upon resentencing by application of
20 Rec. Doc. 13, p. 21.

12

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 13 of 27

newly enacted law that did not exist at the time of the commission of the crime.

In rejecting

these claims related to his resentencing, the Louisiana Fifth Circuit set forth the relevant
circumstances and state statutory law regarding parole eligibility and reasoned as follows:
Pro se assignment of error numbers two and three
Does the Due Process Clause 14th amendment and fair warning 5th
Amendment of the U.S. Constitution and La. Const (1974) Article 182 and
Article 1315 null and void a judicial decisionmaking that retroactively apply a
statutory enactment created after sentence of accused and commission of
offense, (sic)
Does the Ex Post Facto Clause lack a legislative act to be applied retrospective
abridging a pre-existing constitutional guarantee, (sic)
As we understand defendant's arguments in these two assignments of error,
he asserts that his resentencing on November 30,2017 under La. R.S. 15:574.4,
violated the Ex Post Facto Clause and his constitutional rights to due process
and fair warning. He indicates that he should have been resentenced to the
lesser responsive verdict of manslaughter, the law that was in effect at the time
he committed the offense. Consideration of this issue, along with a full
discussion of the law and analysis of the final sentence, follows.
Under Miller, Louisiana's sentencing scheme that mandated life in prison
without the possibility of parole for juvenile offenders could no longer stand.
To comply with the directive set forth in Miller, the Louisiana Legislature
passed 2013 La. Act 239 ("the Act"). The Act created La. C.Cr.P. art. 878.1,
which directs the district courts to conduct a hearing before sentencing to
determine whether the life sentence to be imposed on a juvenile homicide
offender should be with or without parole eligibility. The Act also created La.
R.S. 15:574.4(E)(1), which provides the conditions that must be met by any
juvenile homicide offender serving a sentence with a judicial determination of
parole eligibility pursuant to article 878.1 in order to be considered for parole.
On November 5, 2013, in State v. Tate, 12-2763 (La. 11/5/13), 130 So.3d 829,
cert denied, 572 U.S. 1137, 134 S.Ct. 2663, 189 L.Ed.2d 214 (2014), the
Louisiana Supreme Court held that Miller, which set forth a new rule of
constitutional procedure for sentencing, was not subject to retroactive

13

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 14 of 27

application and was to be applied prospectively only. The Tate court further
held that La. C.Cr.P. art 878.1 and La. R.S. 15:574.4(E)(1), which codified the
Miller rule, applied prospectively only.
However, in January of 2016, in Montgomery v. Louisiana, 577 U.S.----- , 136
S.Ct. 718,193 L.Ed. 2d 599 (2016), as revised (Jan. 27,2016), the United States
Supreme Court abrogated the Tate decision and held that Miller applied
retroactively to defendants whose convictions and sentences became final
prior to the Miller decision in 2012. In Montgomery, the United States Supreme
Court addressed concerns that the retroactive application of Miller would
place an undue hardship on states. The Court stated:
Giving Miller retroactive effect, moreover, does not require States to
relitigate sentences, let alone convictions, in every case where a
juvenile received life without parole. A State may remedy a Miller
violation by permitting juvenile homicide offenders to be considered
for parole, rather than by resentencing them. Allowing those
offenders to be considered for parole ensures that juveniles whose
crimes reflected only transient immaturity - and who have since
matured - will not be forced to serve a disproportionate sentence in
violation of the Eighth Amendment Montgomery, 136 S.Ct. at 736
(citation omitted).
The United States Supreme Court, thereafter, remanded the matter to the
Louisiana Supreme Court On remand, in State v. Montgomery, 13-1163 (La.
6/28/16), 194 So.3d 606, the Louisiana Supreme Court acknowledged the
Miller ruling and reasoning and remanded the matter to the district court for
resentencing of defendant
In the matter before us, defendant was resentenced pursuant to La. R.S.
15:574.4 and La. C.Cr.P. art 878.1, which have been amended and reenacted
subsequent to the Montgomery opinion.29

29 La. C.Cr.P. art 878.1 was subsequently amended by 2017 La. Acts No. 277, § 2,
effective August 1, 2017, to restate that the "sole purpose of the hearing is to determine
whether the sentence shall be imposed with or without parole eligibility[,J" among other
minor changes. La. R.S. 15:574.4 was subsequently amended by 2017 La. Acts No. 277, § 1,
effective August 1, 2017, to reduce the required time to 25 years from the prior time of 35
years.

14

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 15 of 27

La. R.S. 15:574.4(G)(1), provides:
G. (1) Notwithstanding any provision of law to the contrary, any
person serving a sentence of life imprisonment for a conviction of first
degree murder (R.S. 14:30) or second degree murder (R.S. 14:30.1)
who was under the age of eighteen years at the time of the
commission of the offense and whose indictment for the offense was
prior to August 1, 2017, shall be eligible for parole consideration
pursuant to the provisions of this Subsection if a judicial
determination has been made that the person is entitled to parole
eligibility pursuant to Code of Criminal Procedure Article 878.1(B)
and all of the following conditions have been met:
(a) The offender has served twenty-five years of the sentence
imposed.
(b) The offender has not committed any major disciplinary
offenses in the twelve consecutive months prior to the parole
hearing date. A major disciplinary offense is an offense identified
as a Schedule B offense by the Department of Public Safety and
Corrections in the Disciplinary Rules and Procedures for Adult
Offenders.
(c) The offender has completed the mandatory minimum of one
hundred hours of pre-release programming in accordance with
R.S. 15:827.1.
(d) The offender has completed substance abuse treatment as
applicable.
(e) The offender has obtained a GED certification, unless the
offender has previously obtained a high school diploma or is
deemed by a certified educator as being incapable of obtaining a
GED certification due to a learning disability. If the offender is
deemed incapable of obtaining a GED certification, the offender
shall complete at least one of the following:
(i) A literacy program.
(ii) An adult basic education program.

15

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 16 of 27

(iii) A job skills training program.
(f) The offender has obtained a low-risk level designation
determined by a validated risk assessment instrument approved
by the secretary of the Department of Public Safety and
Corrections.
(g) The offender has completed a reentry program to be
determined by the Department of Public Safety and Corrections.
The applicable version of art. 878.1 provides in pertinent part as follows:
B. (1) If an offender was indicted prior to August 1,2017, for the crime
of first degree murder (R.S. 14:30) or second degree murder (R.S.
14:30.1) where the offender was under the age of eighteen years at
the time of the commission of the offense and a hearing was not held
pursuant to this Article prior to August 1,2017, to determine whether
the offender's sentence should be imposed with or without parole
eligibility, the district attorney may file a notice of intent to seek a
sentence of life imprisonment without the possibility of parole within
ninety days of August 1, 2017. If the district attorney timely files the
notice of intent, a hearing shall be conducted to determine whether
the sentence shall be imposed with or without parole eligibility. If the
court determines that the sentence shall be imposed with parole
eligibility, the offender shall be eligible for parole pursuant to R.S.
15:574.4(G). If the district attorney fails to timely file the notice of
intent, the offender shall be eligible for parole pursuant to R.S.
15:574.4(E) without the need of a judicial determination pursuant to
the provisions of this Article. If the court determines that the sentence
shall be imposed without parole eligibility, the offender shall not be
eligible for parole.
The defendant argues that applying La. R.S. 15:574.4 in resentencing a
defendant pursuant to Miller violates the ex post facto clause and his
constitutional rights to due process and fair warning. He further argues he
should be resentenced to the lesser responsive verdict of manslaughter, the
law that was in effect at the time he committed the offense.
Art. 1, § 10 of the United States Constitution and La. Const art I, § 23 prohibit

16

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 17 of 27

ex post facto application of the criminal law by the state. The focus of the ex
post facto inquiry is whether a new law redefines criminal conduct or
increases the penalty by which the crime is punishable. Application of La. R.S.
15:574.4(E) in the instant matter did neither. State v. Jackson, 51,527 (La. App.
2 Cir. 8/9/17), 243 So.3d 1093,1099, writ denied, 17-1540 (La. 5/25/18), 243
So.3d 565.
Eligibility for parole is the sole question to be answered in a Miller hearing.
State v. Stewart, 17-297 (La. App. 5 Cir. 11/29/17), 232 So.3d 1284. There is
no consideration of whether the defendant was entitled to a downward
departure from the mandatory sentence of life imprisonment at hard labor.
Rather, the trial court is required to consider only whether that mandatory
sentence should include parole eligibility. Id.
Moreover, Louisiana courts have repeatedly rejected the argument that
resentencing pursuant to Miller, requires a defendant to be sentenced under
the manslaughter statute. State v. Brown, 51,418 (La. App. 2 Cir. 6/21/17), —
- So.3d----- , writ denied,17-1287 (La. 4/27/18), 241 So.3d 306, and cases
cited therein.
In the matter before us, the record shows that the trial judge adhered to the
law set forth in Miller and its progeny in resentencing. According to that law,
the trial judge's purpose at the hearing was to determine whether to
resentence defendant to life imprisonment with parole eligibility or life
imprisonment without parole eligibility. After reviewing the law, the exhibits,
and the facts of the case, the trial judge chose to vacate defendant’s sentence
and resentence him to life imprisonment with parole eligibility in twenty-five
years, the less severe of the two potential penalties. Defendant's sentence now
provides him with a meaningful opportunity for release. In light of the
foregoing, we find that defendant's sentence was neither excessive, nor an
infringement of the principles of ex post facto. Therefore, we find no merit in
defendant's assignments of error.30
The Louisiana Supreme Court subsequently denied relief without additional stated reasons.
In support of his claims, Terrick directs the Court’s attention to the arguments he

30 State v. Terrick, 254 So.3d at 1250-53 (footnote in original).

17

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 18 of 27

made on direct appeal and in his motion to correct the illegal sentence.

He first asserts that

the sentence violates his due-process rights and the principle of fair warning.

He argues

that the law in effect at the time he committed the offense is determinative of the penalty to
be imposed.

In this case, however, the penalty for second-degree murder, mandatory life

imprisonment without parole, was declared unconstitutional,

He contends that the

appropriate remedy to correct an illegal sentence is to remand for resentencing to the most
serious penalty for the next lesser responsive verdict.

State v. Craig, 340 So.2d 191 (La.

1976) (involving resentencing individuals with mandatory death sentences for aggravated
rape to the most serious penalty for the next lesser responsive verdict).

Thus, Terrick

maintains that the only penalty available was the sentence for the responsive verdict of
manslaughter, which carried a maximum of 40 years imprisonment.

Terrick contends the

application of newly enacted law to impose a sentence of life imprisonment with the
possibility of parole after 25 years deprived him of the fair warning to which he was entitled.
To the extent Terrick suggests that the state courts misapplied state law in
determining his new sentence, his claim fails in two respects.

First, Louisiana state courts

have soundly rejected the application of Craig in situations involving mandatory life
sentences for juveniles who were resentenced following Miller.

State v. Francis, 17-651

(La. App. 5 Cir. 5/16/18), 247 So.3d 199, 203-04; State v. Evans, 51,811 (La. App. 2 Cir.
1/10/18), 245 So.3d 1112; State v. Jones, 15-157 (La. App. 5 Cir. 9/23/15), 176 So.3d 713,
719-20; State v. Lewis, 17-651 (La. App. 4 Cir. 4/18/18), 244 So.3d 527, 532; State v. Plater,

18

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 19 of 27

51,338 (La. App. 2 Cir. 5/17/17), 222 So.3d 897, 901.

The appropriate remedy under

Louisiana law is not to sentence juvenile offenders with mandatory life sentences for murder
to the next lesser responsive verdict of manslaughter, as Terrick contends.
Second, and more importantly, any claim that urges only a misapplication of state law
is not properly before this Court for consideration on federal habeas review.

"[I]t is not

the province of a federal habeas court to reexamine state-court determinations on state-law
questions.”

Estelle v. McGuire, 502 U.S. 62,67-68 (1991); see also Charles v. Thaler, 629 F.3d

494, 500-01 (5th Cir. 2011) ("Under § 2254, federal habeas courts sit to review state court
misapplications of federal law. A federal court lacks authority to rule that a state court
incorrectly interpreted its own law. When, as here, a state court's legal conclusions are
affirmed by the highest court in that state, those conclusions are state law.”); Molo v. Johnson,
207 F.3d 773, 776 n.9 (5th Cir. 2000) ("Federal habeas review does not extend to state court
conclusions of state law.”); Hogue v. Johnson, 131 F.3d 466, 506 (5th Cir. 1997) (a
disagreement as to state law is not cognizable on federal habeas review).

Federal habeas

corpus relief may be granted only to remedy violations of the Constitution and laws of the
United States; mere violations of state law will not suffice. 28 U.S.C. § 2254; Engle v. Isaac,
456 U.S. 107,119,102 S.Ct. 1558, 71 L.Ed.2d 783 (1982).
As for his federal claim, due process requires fair warning of the prohibited conduct
and the penalties for that conduct.
149 L.Ed.2d 697 (2001).

Rogers v. Tennessee, 532 U.S. 451, 457,121 S.Ct. 1693,

Terrick's fair-warning claim is founded on the United States

19

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 20 of 27

Supreme Court's decision in Bouie v. City of Columbia, 378 U.S. 347, 84 S.Ct. 1697,12 L.Ed.2d
894 (1964).3i

In Bouie, the defendants staged a "sit in" of a segregated lunch counter.

When they refused to leave, they were charged with and subsequently convicted of criminal
trespass, which by its terms forbade only "entry upon the lands of another ... after notice ...
prohibiting such entry...."

Although it was undisputed that defendants did not violate the

specific terms of that statute, the South Carolina Supreme Court nevertheless affirmed their
convictions because, after defendants' actions, the statute had been judicially construed as
encompassing the broader situation where a person simply remains on the premises of
another after receiving notice to leave.

The United States Supreme Court reversed the

convictions on due-process grounds, noting:
When a[n] ... unforeseeable state-court construction of a criminal statute is
applied retroactively to subject a person to criminal liability for past conduct,
the effect is to deprive him of due process of law in the sense of fair warning
that his contemplated conduct constitutes a crime.
Id. at 354-55.

The Court held: "If a judicial construction of a criminal statute is unexpected

and indefensible by reference to the law which had been expressed prior to the conduct in
issue, it must not be given retroactive effect."

Id. at 354, 84 S.Ct. 1697 (emphasis added)

(internal quotation marks omitted); see also Rogers, 523 U.S. at 461,118 S.Ct. 1428.
Unlike the situation in Bouie, Terrick urges a violation of fair warning principles based
on imposition of a life sentence that now affords him parole eligibility after 25 years under

31 Rec. Doc. 3-1, p. 31.

20

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 21 of 27

current Louisiana law following the Supreme Court pronouncement that rendered his
original mandatory sentence of life without benefit of parole for second-degree murder
unconstitutional.

To the extent he complains that this scenario (i.e., failure to follow Craig,

supra and impose the sentence for the next lesser responsive verdict) violated principles of
due process and fair warning, that argument has been considered and flatly rejected by
federal courts on numerous occasions.

Federal district courts have uniformly denied such

arguments in the context of comparable Graham violations (minors sentenced to
unconstitutional mandatory life imprisonment without parole for non-homicide crimes),
remedied to afford parole eligibility pursuant to State v. Shaffer, 11-1756 (La. 11/23/11), 77
So.3d 939, which rejected the State v. Craig methodology, as well as cases involving Miller
violations.

See Looney v. Vannoy, Civ. Action No. 3:19-CV-00939, 2019 WL 6034957, at *3

(W.D. La. Oct. 23, 2019), adopted 2019 WL 6003239 (W.D. La. Nov. 13, 2019); Jackson v.
Vannoy, Civ. Action No. 5:19-CV-665-P, 2019 WL 4145727, at *3 (W.D. La. July 11, 2019),
adopted 2019 WL 4166762 (W.D. La. Aug. 30, 2019); Jones v. LeBlanc, Civ. Action No. 16-844,
2017 WL 5125766, at *4-6 (E.D. La. March 17, 2017), adopted 2017 WL 5068346 (E.D. La.
Nov. 03, 2017); Skipper v. Cain, Civ. Action No. 14-651-JjB-RLB, 2017 WL 6884335, at *2-3
(M.D. La. Nov. 6,2017), adopted 2018 WL 343851 (M.D. La., Jan. 09, 2018); Burge v. Cain, Civ.
Action No. 13-721, 2015 WL 4168111, at *8-11 (E.D. La. July 1, 2015); Walder v. Cain, Civ.
Action No. 13-4745, 2015 WL 349285, at *4 (E.D. La. Jan. 26, 2015).
In rejecting a similar argument that arose upon remedying a Graham violation, this

21

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 22 of 27

Court reasoned that petitioner did not have a reasonable expectation that the violation
would be remedied in the same manner as for Roberts violations (holding mandatory death
sentences unconstitutional), that is, by applying the Craig methodology and imposing the
penalty for the most serious penalty for the next lesser-included offense.
4168111 at *11.

Burge, 2015 WL

In Burge, the Court explained:

As an initial matter, it is axiomatic that because "there often arises a need to
clarify or even to reevaluate prior opinions as new circumstances and fact
patterns present themselves," Rogers v. Tennessee, 532 U.S. 451, 461 (2001),
jurisprudence necessarily evolves rather than remains static. In light of that
reality, a petitioner’s right to substantive due process in judicial
decisionmaking is violated only where there has been an "unjustified and
unpredictable break[ ] with prior law." Id. at 462. Therefore, a change in
decisional criminal law offends due process and violates the principle of fair
warning "only where it is unexpected and indefensible by reference to the law
which had been expressed prior to the conduct in issue." Id. (quotation marks
omitted).
The Court of Appeal’s reliance on Shaffer does not cross that impermissible
line. Graham held that sentencing juvenile offenders to life without the
possibility of parole for non-homicide offenses violated the Eighth
Amendment; as a result, the state courts were then required to fashion a
remedy for inmates serving such sentences. Petitioner notes that when
resentencing was similarly required for some inmates after the United States
Supreme Court held that mandatory death sentences were unconstitutional in
Roberts v. Louisiana, 428 U.S. 325 (1976), the Louisiana Supreme Court held
that the appropriate remedy was to resentence them by imposing the most
serious penalty for the next lesser included offense. State v. Craig, 340 So.2d
191 (La. 1976). Petitioner argues that remedy is therefore similarly
appropriate for inmates impacted by Graham.
Petitioner’s argument is flawed. Clearly, the state courts could have adopted a
similar remedy as a means to fix Graham violations; however, that simply is
not the issue. Rather, the issue is whether petitioner had a reasonable
expectation that Graham violations would be remedied in the same manner as
Roberts violations. He did not. Graham was a new case presenting a different

22

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 23 of 27

problem, and the Louisiana Supreme Court in Shaffer opted to solve that
problem in a different way. Shaffer did not constitute a break with prior
decisional law with respect to Graham-type violations, because no such law
directly on point existed. As a result, it simply cannot be said that petitioner
had a reasonable expectation that Graham violations would necessarily be
remedied in the same way as Roberts violations or that the Court of Appeal's
application of Shaffer was so "unexpected and indefensible" as to violate his
right to substantive due process.
Id.

Similarly here, Miller was decided in 2012 and presented a different issue.

We cannot

conclude that Terrick had any reasonable expectation that the state court would follow Craig
and that he would be resentenced to the penalty for the next lesser offense, such that the
state court's sentencing Terrick to life imprisonment with the possibility of parole in
accordance with legislative mandates consistent with the pronouncement in Miller ran afoul
of fair warning principles and deprived him of due process.

Accordingly, Terrick is not

entitled to relief on this claim.
In a related vein, Terrick also asserts that his sentence of life imprisonment with
parole eligibility after 25 years pursuant to provisions under the new Louisiana Revised
Statute 15:574.4 and Louisiana Code of Criminal Procedure article 878.1, retroactively
applied, violated the constitutional prohibition against ex postfacto laws.

Article 1, Section

10, of the Constitution prevents the States from enacting any "ex postfacto law."

A change

in a law violates the Ex Post Facto Clause if it "changes the punishment and inflicts a greater
punishment than the law annexed to the crime, when committed."
390 (1798).

Colder v. Bull, 3 U.S. 386,

"Although the Latin phrase ‘ex post facto’ literally encompasses any law

passed 'after the fact,’ it has long been recognized by [the Supreme Court] that the

23

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 24 of 27

constitutional prohibition on ex post facto laws applies only to penal statutes which
disadvantage the offender affected by them."

Collins v. Youngblood, 497 U.S. 37,41 (1990).

Retroactive application of a law violates the Ex Post Facto Clause only if it: (1) "punish[es] as
a crime an act previously committed, which was innocent when done;" (2) "makejs] more
burdensome the punishment for a crime, after its commission;'' or (3) "deprive[s] one
charged with crime of any defense available according to law at the time when the act was
committed."

Id. at 52.

In this case, the Supreme Court's pronouncement in Miller necessitated a change in
the state statutory sentencing scheme, which at the time Terrick committed the crime as a
juvenile, imposed a mandatory sentence for second-degree murder of life imprisonment
without benefit of parole, probation or suspension of sentence.32

La. R.S. 14:31.

There is

no dispute in this case that the trial court retroactively applied the new statutory sentencing
law when resentencing Terrick in 2017.

However, a change in a law violates the Ex Post

Facto Clause only if it changes the punishment and inflicts a greater punishment than the
law annexed to the crime, when committed."

Colder, 3 U.S. at 390 (emphasis added).

increase in penalty or disadvantage occurred in this case.
application of the new sentencing scheme,

No

Terrick plainly benefited from

He received a less burdensome life sentence

that affords him parole eligibility after 25 years.

Thus, his ex post facto argument fails.

32 The text of the relevant state statutes is not restated here, but may be found in the
quote extracted from the state-court direct appeal opinion set forth at the beginning of the
analysis section.

24

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 25 of 27

See Bueno v. Louisiana, Civ. Action No. 18-8465, 2019 WL 1177731, at *7-9 (E.D. La. Feb. 20,
2019) (citing/ones v. LeBIanc, Civ. Action No. 16-844, 2017 WL 5125766, at *7-8 (E.D. La.
March 17, 2017) (retroactive application of La. Rev. Stat. § 15:574.4(D) to resentence
juvenile offender to life with the benefit of parole did not violate ex post facto laws where
petitioner was eligible for parole when he was not previously), report and recommendation
adopted, 2017 WL 5068346 (E.D. La. Nov. 3, 2017); Skipper v. Cain, Civ. Action No. 14-651JJB-RLB, 2017 WL 6884335, at *4 (M.D. La. Nov. 6, 2017) (state court's retroactive
application of La Rev. Stat § 15:574.4(A)(2) to amend juvenile non-homicide offender
sentence to delete the denial of parole eligibility did not violate ex post facto clause where
petitioner received a less burdensome sentence of life with the possibility of parole), report
and recommendation adopted, 2018 WL 3433851 (M.D. La. Jan 9, 2018), appeal docketed;
Skipper v. Vannoy, 18-30142 (5th Cir. Feb. 2, 2018); and Juarez v. Davis, No. 3:16-CV-0843G(BH), 2018 WL 2164507, at *3-5 (N.D. Tex., March 28, 2018) (application of statute
amended after the commission of the offense to resentence a juvenile homicide offender to
life imprisonment with parole eligibility after serving 40 years did not constitute an ex post
facto violation because the reformed sentence allowing for parole eligibility was more
favorable than the original sentence of life without parole), report and recommendation
adopted, 2018 WL 2150943 (N.D. Tex. May 10, 2018), appeal docketed, No. 18-10672 (5th
Cir. Jun. 7,2018)).

Accordingly, the state courts' denial of relief on these claims was neither

contrary to nor an unreasonable application of established Supreme Court precedent.

25

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 26 of 27

C. Motion for Abeyance
Finally, as for Terrick s request that the Court hold this proceeding in abeyance while
he continues his efforts in state court to exhaust two additional claims not included in this
federal petition, the Court finds no valid grounds exist to grant that motion,

Even when a

district court is faced with a "mixed" § 2254 petition containing both exhausted and
unexhausted claims, which is not the case here, the Supreme Court has cautioned that a stayand-abeyance should be available only in limited circumstances," and is appropriate only
when the district court determines that there was "good cause” for the failure to exhaust.
Rhines v. Weber, 544 U.S. 269, 277 (2005).

Generally, a stay is not proper or warranted

when the district court finds that the unexhausted claims would be procedurally barred in
the state courts.

Neville v. Dretke, 423 F.3d 474, 479-80 (5th Cir. 2005).

During the time

this federal application was pending, Terrick's claim regarding his confession was denied by
the Louisiana Supreme Court as untimely.

His remaining claim challenging the indictment

was rejected as procedurally barred by the state district court.

That procedurally barred

claim is still pending supervisory review with the state courts of appeal.

No good cause

has been shown to warrant a stay in this case.
RECOMMENDATION
For the foregoing reasons, it is RECOMMENDED that Terrick's Motion for Abeyance
(Rec. Doc. 14) be DENIED.
It is further RECOMMENDED that Terrick's application for federal habeas corpus

26

Case 2:19-cv-00985-ILRL Document 25 Filed 01/13/20 Page 27 of 27

relief be DISMISSED WITH PREJUDICE.
A party's failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge's report and recommendation within fourteen (14)
days after being served with a copy shall bar that party, except upon grounds of plain error,
from attacking on appeal the unobjected-to proposed factual findings and legal conclusions
accepted by the district court, provided that the party has been served with notice that such
consequences will result from a failure to object. 28 U.S.C. § 636(b)(1); Douglass v. United
Services Auto. Ass'n, 79 F.3d 1415,1430 (5th Cir. 1996) (en banc).33
New Orleans, Louisiana, this

13th day of

MICHAEL
UNITED STATES MAGISTRATE JUDGE

33 Douglass referenced the previously applicable 10-day period for the filing of
objections. Effective December 1, 2009, 28 U.S.C. § 636(b)(1) was amended to extend that
period to 14 days.

27

Additional material
from this filing is
available in the
Clerk's Office.

